HHS/OIG, Audit -"Audit of Administrative Fees Charged to the Federal
Government for Florida Trust Funds,"(A-04-04-03500)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Fees Charged to the Federal Government for Florida
Trust Funds," (A-04-04-03500)
October 1, 2004
Complete
Text of Report is available in PDF format (625 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Florida appropriately
charged the Federal Government for administrative expenses of selected trust
funds.  We found that the State inappropriately assessed an administrative
fee totaling $108,850 on the interest earnings of two trust funds maintained
by the State Department of Juvenile Justice.  The State used these administrative
fees to support general government operations.  OMB Circular A-87 prohibits
the use of Federal funds for the cost of general government.  The State
did not adequately monitor the trust funds to ensure that all trust funds that
contained Federal funds were exempt from the administrative fee assessment.  In
addition to procedural recommendations, we recommended that the State repay
the $108,850 to the State’s Department of Juvenile Justice trust funds.  The
State concurred with our findings and recommendations.